UNITED STATES DEPARTMENT OF AGRICULTURE

       OFFICE OF INSPECTOR GENERAL




STATEMENT OF THE HONORABLE PHYLLIS K. FONG

             INSPECTOR GENERAL




                    Before the

  Committee on Oversight and Government Reform

          U.S. House of Representatives

                 March 8, 2012
Good morning, Chairman Issa, Ranking Member Cummings, and Members of the Committee.

Thank you for the opportunity to testify about our office’s work to protect the integrity of the

Supplemental Nutrition Assistance Program (SNAP).


SNAP is the Department of Agriculture’s (USDA) largest program, both in terms of participants

and budget, which at present totals $75 billion annually. In my testimony today, I will highlight

the work of the Office of Inspector General (OIG) to help the Food and Nutrition Service (FNS)

oversee SNAP and protect the program from individuals and businesses seeking to exploit it.


While it is ultimately FNS’ responsibility to take administrative action against bad actors and

keep such persons from reentering the program, OIG devotes considerable resources to helping

FNS ensure the integrity of SNAP as part of our mission to promote the economy, efficiency,

and effectiveness of USDA programs and operations. So far this fiscal year, we have directed

48 percent of our investigative resources to the program. In the last 5 years, we have completed

779 SNAP investigations that have resulted in 1,356 indictments, 944 convictions, and

792 sanctions against individuals and businesses.1 During that time, our monetary results have

totaled more than $186 million.2


OIG also conducts audits designed to ascertain if programs like SNAP are functioning as

intended, if allocated funds are reaching intended recipients, and if funds are achieving their

intended purposes. When we find problems, we provide recommendations to help the agency

better fulfill its mission. By responding to our recommendations and taking administrative




1
 We refer to investigations conducted from fiscal year (FY) 2007 through February 29, 2012.
2
 Investigation monetary results come from recoveries, court-ordered fines, restitutions, administrative penalties, and
asset forfeitures.


                                                          1
action against those we prosecute, FNS can help ensure that every Federal dollar spent on SNAP

is spent wisely.


Investigations of Disqualified SNAP Retailers


When FNS determines that a retailer is abusing the program, the agency places it on the

disqualified vendor list which, in theory, should prevent that retailer from reentering the

program. While FNS is active in disqualifying abusive retailers from the program, some

disqualified retailers have found ways around this particular control.


Our investigations have shown that one of the most common ways a disqualified retailer can

circumvent FNS’ efforts to keep them out of the program is by enlisting a “straw owner,” often a

family member, acquaintance, or employee, as the alleged owner. By reapplying to the program

using the name of this “straw owner,” the disqualified retailer sets up the business again and

continues criminal activities. A recent news article drew attention to an OIG case that exposed

such a scheme in Hartford, Connecticut.3 In that case, a store owner was deported after being

convicted of food stamp trafficking fraud. A few years later, however, he illegally reentered the

United States and opened several stores using other individuals’ names. The false owners of

these stores signed their names on FNS documents to obtain authorization to accept SNAP

benefits, but the owner, his wife, and his brother actually operated these stores and used them to

defraud the Government of about $2 million. As a result of our investigation, the store owner

and his brother were ordered to pay restitution and serve a total of 78 months of incarceration.




3
 A February 20, 2012 Scripps Howard News Service article reported on retailers who had been removed from
SNAP but managed to reenter the program and continue their fraudulent activity.


                                                      2
One of our investigations has even shown that a group of criminals in Florida voluntarily

withdrew their store from SNAP in order to avoid detection for trafficking. The group then

resubmitted an application with a different name and ownership, and continued defrauding

SNAP at the same location. They executed this scheme successfully three times. On their fourth

try, OIG investigative efforts led to their prosecution, and FNS removed them from the program.

Our investigation disclosed that this group trafficked approximately $6.2 million in benefits.

Between March and May 2010, four defendants pled guilty to wire fraud and SNAP fraud, and

were each sentenced to prison terms ranging from 8 to 48 months along with restitution orders

ranging from about $350,000 to $2.2 million.


When we identify schemes of this sort, OIG works with FNS so that agency officials can

evaluate their program and seek ways to strengthen it. Presently, we are working with FNS to

better address straw ownership and other fraudulent schemes affecting SNAP.


Audits of SNAP Retailers


While our investigations highlight how dishonest individuals take advantage of the system to

defraud the Government, OIG audits have reviewed FNS’ system to authorize retailers and made

recommendations to prevent proven bad actors from reentering SNAP and committing additional

fraud.


In 2008, for example, we found that FNS does not verify SNAP retailers’ criminal records and

therefore cannot comply with its own requirement to deny SNAP authorization to any retailer

with a criminal history (i.e., embezzlement, theft, forgery, etc.) reflecting on the business




                                                3
integrity of the owner.4 We recommended that FNS begin reviewing retailers’ criminal records,

but FNS concluded that our recommendation would need a regulatory change and may not be

cost beneficial. We accepted this decision on the condition that FNS continue to seek other

options to better ensure the integrity of retailers applying to participate in the program. In

response to our second recommendation for FNS to improve the retailer authorization process so

that it would enable the successful prosecution of SNAP traffickers, FNS generally agreed.


FNS is also not making use of one of the most powerful tools available to keep bad actors away,

not only from SNAP, but from other Federal programs they might exploit. “Suspension and

debarment” is a legal tool that Federal agencies can use to protect programs from repeat abusers

and ensure that the Government does business only with responsible parties. If FNS took steps

to debar retailers with a proven record of dishonesty, those individuals would be prevented from

abusing other Federal programs.


However, in a recent audit, we determined that FNS did not debar any of the 615 wholesalers

and retailers convicted in relation to 208 OIG cases, even though a conviction is adequate

grounds for debarment.5 While we contend that FNS should consider disqualified SNAP

retailers for suspension or debarment, it is not FNS’ policy to do so. FNS asserts that it can

exclude retailers under the Food Stamp Act, that disqualified retailers are unlikely to pursue

other business with the Federal Government, and that debarring these individuals is costly.

Rather than issuing a blanket rule that would exclude disqualified retailers from being suspended

or debarred, FNS should consider suspension and debarment on a case-by-case basis. By doing



4
 Audit 27601-0015-At, Food Stamp Program Retailer Authorization and Store Visits (September 28, 2008).
5
 Audit 50601-0014-At, Effectiveness and Enforcement of Suspension and Debarment Regulations in the U.S.
Department of Agriculture (August 16, 2010).


                                                      4
so, FNS can help protect the entire Government by preventing convicted program abusers from

entering into transactions with other agencies.


SNAP Vulnerabilities beyond Disqualified Retailers


OIG has focused significant work on disqualified retailers who reenter the program and continue

to exploit it. We are, however, responsible for providing broad oversight for the entire program,

and we have found fraud and program inefficiencies in other aspects of SNAP as well.


In terms of fraud, we have seen many types of trafficking in SNAP benefits. By giving a

recipient $50 in cash for $100 in benefits, an unscrupulous retailer can make a significant profit;

recipients, of course, are then able to spend the cash however they like. In some cases, recipients

have exchanged benefits for drugs, weapons, and other contraband. When trafficking occurs

unchecked, families do not receive the intended nutritional assistance, and unscrupulous retailers

profit at the expense of the American public.


OIG also has been looking at recipients who misrepresent themselves to receive benefits.

Recently, OIG has conducted a series of audits of 10 States to assess how they used participant

databases to identify potentially fraudulent recipients, and we have completed work in 5 States.6

Our analysis of the databases that States check as part of their role in ensuring recipient

eligibility revealed that a total of 8,594 recipients in the 5 States were receiving potential

improper payments. Some of these recipients were using the social security numbers of

6
  The 10 States are Alabama, Florida, Kansas, Louisiana, Massachusetts, Mississippi, Missouri, New Jersey, New
York, and Texas. We have issued reports for Alabama, Florida, Kansas, Louisiana, and Mississippi. Audit 27002-
0004-13, Analysis of Alabama’s Supplemental Nutrition Assistance Program (SNAP) Eligibility Data (January 31,
2012); Audit 27002-0002-13, Analysis of Florida’s Supplemental Nutrition Assistance Program (SNAP) Eligibility
Data (November 29, 2011); Audit 27002-0001-13, Analysis of Kansas’ Supplemental Nutrition Assistance Program
(SNAP) Eligibility Data (November 23, 2011); Audit 27002-0003-13, Analysis of Louisiana’s Supplemental
Nutrition Assistance Program (SNAP) Eligibility Data (January 31, 2012); and Audit 27002-0005-13, Analysis of
Mississippi’s Supplemental Nutrition Assistance Program (SNAP) Eligibility Data (January 31, 2012).


                                                      5
deceased individuals, or otherwise invalid social security numbers, while others were receiving

benefits in more than one State. In total, we estimate that these recipients could be receiving

about $1.1 million a month.


In our reports, we have recommended that FNS require State agencies to ensure they use a

national database to perform death matches and social security number verifications, and that

they perform checks to make sure information is entered correctly. Generally, FNS has agreed

with our recommendations and is taking corrective action.


On December 1, 2011, we presented the early results of this work to the Subcommittee on

Department Operations, Oversight, and Credit of the House Agriculture Committee. Based on

the feedback we received, we expanded the scope of our audit work to include evaluating

whether the States and FNS are using available data analysis tools effectively, and identifying

and evaluating the integrity of amounts reported for recipient and retailer fraud.


We have also completed an audit of the Anti-Fraud Locator EBT Retailer Transactions (ALERT)

system, which FNS uses to track SNAP recipient transactions for signs of fraud, waste, and

abuse.7 Although FNS compiles a “watch list” of stores with suspicious transactions, we found

that FNS did not have the information it needed to determine if stores on the list were violating

requirements. Further, the agency was not categorizing stores to maximize its ability to identify

patterns of fraud. We recommended that FNS enhance the system to provide additional data, and

develop plans to better compare stores. FNS agreed with our recommendations.


Our ongoing work includes looking at FNS’ methodologies for determining its rate of SNAP

trafficking (which it estimates at 1 percent) and its rate of improper payments (estimated at about

7
    Audit 27099-0032-SF, ALERT Watch List (July 28, 2006).


                                                       6
3.8 percent). We are also looking at whether FNS has data related to the level of recipient fraud

in the program, which the agency does not report. Finally, OIG is planning to revisit issues

related to how FNS screens new retailer applications to prevent proven bad actors from entering

SNAP; our auditors are currently evaluating how to best approach this issue so that we can

provide timely results to FNS.


Conclusion


This concludes my written testimony. Thank you again for inviting me to testify today before

the Committee. I would be pleased to address any questions you may have.




                                                7
